TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Field Assistance Office Management
                    Information Systems Have Improved, but
                          Enhancements Could Improve
                                Taxpayer Service



                                            May 6, 2009

                              Reference Number: 2009-40-072




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                            WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                      May 6, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Field Assistance Office Management Information
                                  Systems Have Improved, but Enhancements Could Improve
                                  Taxpayer Service (Audit # 200840017)

 This report presents the results of our review to assess the Internal Revenue Service (IRS) Field
 Assistance Office’s corrective actions to improve its management information systems. This
 audit was conducted as part of our Fiscal Year 2008 Annual Audit Plan.

 Impact on the Taxpayer
 Millions of taxpayers visit local IRS offices called Taxpayer Assistance Centers (TAC or Center)
 to obtain face-to-face assistance in interpreting tax laws and regulations, preparing certain tax
 returns, and resolving inquiries on taxpayer accounts. Management information is essential to
 effectively oversee the TACs. Knowing what services are provided at each TAC would allow
 the IRS to determine where to focus its resources, better plan for consistently delivering
 high-quality services to taxpayers, and enhance overall Field Assistance Office operations.
 Expanding the use of current technology to adopt industry best practices would also improve
 customer service and taxpayer experience.

 Synopsis
 Over the last 3 years, the Treasury Inspector General for Tax Administration (TIGTA) has
 reported on the IRS’ inability to compile and maintain accurate and complete management
 information to oversee and measure the effectiveness of its TAC Program.1 In response, the IRS
 developed and implemented three different information systems that 1) capture the number of


 1
     See Appendix V for a complete list of audit reports.
                Field Assistance Office Management Information Systems Have
                 Improved, but Enhancements Could Improve Taxpayer Service



taxpayers and the primary service provided to those taxpayers when they visit the TACs,
2) automate the manual transfer of information from another system with a systemic interface,
and 3) generate management information reports. Although the Field Assistance Office has
improved its management information systems, thereby increasing the availability of program
data, these systems do not capture all services provided to taxpayers.
However, Contact Recording, a fourth system implemented by the IRS that captures the audio
portion and screen activity during assistor/customer interactions for quality review, could
provide the number of services provided to taxpayers. Quality reviewers listen to a statistical
sample of recordings, the results of which could be used to project the number of services
provided by all TACs.
Additional management information system reports could also provide insight on the reasons
why taxpayers visit the TACs but leave without receiving services. During Fiscal Year 2008,
more than 400,000 taxpayers, 6 percent of all walk-in taxpayers, left without receiving services.
IRS systems capture the reasons why taxpayers visit the TACs. However, the reasons that
taxpayers leave without receiving services are not currently available for analysis. Analysis of
these data would provide the IRS with opportunities, for example, to reduce wait times and better
allocate resources during peak times.
System controls are in place to ensure the accuracy of data entered into the systems, but more
oversight is needed to ensure the accuracy of system data. TAC management needs to review
the system reports before approving data for transmission. When assistors do not accurately
record taxpayer visits, the number of contacts and services provided by the Centers are
understated.
Finally, the IRS should adopt the following best practices to help educate taxpayers and reduce
taxpayer wait times, taxpayer burden, and operating costs.
   •   Provide taxpayers with wait times on IRS.gov, the IRS public web site, and on-screen
       monitors located at each Center. Taxpayers do not have a way to find out before visiting
       a Center how long they will have to wait at a particular office to receive services or how
       long they must wait before they receive assistance once at the Centers. Screen monitors
       at each Center could provide a way to educate and inform taxpayers during their visits,
       reducing the need to publish and update costly printed documents currently in use.
       Providing taxpayers with all the information needed to select the best service option for
       them is part of providing top-quality service.
   •   Provide online appointment scheduling for taxpayers seeking tax return preparation
       services. Current IRS guidelines require that taxpayers visit the TACs to schedule
       appointments to receive this service. Some taxpayers are able to receive same day
       appointments, but most are required to return for appointments to prepare their tax
       returns.


                                                                                                  2
                Field Assistance Office Management Information Systems Have
                 Improved, but Enhancements Could Improve Taxpayer Service




Recommendations
The Commissioner, Wage and Investment Division, should 1) use Centralized Quality Review
System staff and data to identify multiple services provided to taxpayers while quality reviewers
listen to contact recordings, 2) use existing system data to identify opportunities for improving
taxpayer services, 3) ensure internal controls are reinforced to ensure management information
systems data are entered accurately and reviewed, and 4) expand the use of current technology to
adopt industry best practices.

Response
IRS management agreed with two recommendations and disagreed with two recommendations.
The IRS agreed to use existing system data to identify opportunities for improving taxpayer
services. The IRS also agreed to ensure internal controls are reinforced to ensure management
information systems data are entered accurately and reviewed.
Management disagreed with our recommendation to identify and capture multiple services
provided to taxpayers, contending that a new quality review system to identify services provided
would not significantly enhance data already available. IRS management also disagreed with our
recommendation to expand the use of current technology to adopt industry best practices, stating
that current system capacity is limited and will not support expansion to electronic options for
taxpayers.
IRS management did not agree with our outcome measure of reduced taxpayer burden because
management believes that implementation of an online appointment system would be cost
prohibitive and would add a new component to the system that is outdated by technology
standards. Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
Regarding the first recommendation, we believe using Centralized Quality Review System staff
and data to identify multiple services provided to taxpayers who visit the TACs would provide
meaningful data needed to make management decisions. In response to a prior TIGTA report,
the Field Assistance Office agreed to count services but did not successfully implement a
methodology to capture the needed data. As a result, the current process of only capturing one
service per taxpayer visit continues to significantly understate the value the TACs provide
taxpayers who prefer face-to-face assistance.
Limited tests at 2 TACs during this review showed that the current methodology understated the
number of services provided by 73 percent. Field Assistance Office management again agreed
that capturing all services would enhance data already used to manage the Centers. Because
quality reviews are based on a statistical sample, the results could be used to project the number
of services at all Centers. In addition, the IRS Statistics of Income function agreed that services
                                                                                                  3
                Field Assistance Office Management Information Systems Have
                 Improved, but Enhancements Could Improve Taxpayer Service



captured from the statistical sample of reviewed recordings could be used to project the volume
of services provided by all Centers.
In view of the fact that management previously agreed to count multiple services and
acknowledged the benefits of increased data, it is not clear why the IRS disagrees with using
Contact Recording to count all services provided to taxpayers at Centers. Further, the
understatement of services provided has a direct impact on factors the IRS should consider in its
5-year strategic plan to improve taxpayer service.
Regarding the fourth recommendation, the IRS agreed that an online appointment process would
reduce taxpayer burden. However, the IRS stated that implementation of this process was not
feasible because the capability of the current system is limited and will not support expansion to
an electronic appointment process. During this review, auditors provided the IRS data on the
cost to implement a web-based system that would provide wait-time estimates to taxpayers
planning to visit a TAC. The cost data were based on information obtained from a commercial
vendor. Based on this information, it appears the function could be added at a moderate cost.
The IRS combined the cost to implement an online appointment process with the estimated cost
to provide web-based wait times. However, the appointment process is not part of the function
to provide wait times. We believe these costs should be considered separately.
Management’s response further stated that a web-based appointment process would require
enhancements to the current system. During the audit, we informed the IRS that there are several
off-the-shelf software programs that are available and could be considered to provide this
service.
Concerning the outcome measure related to this recommendation, the information we obtained
from vendors indicated that the costs to add a new component to the current system for an online
appointment would be moderate. The IRS did not provide a cost/benefit analyses or any
documents to show that the costs would make it impracticable to implement this feature.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                    4
                      Field Assistance Office Management Information Systems Have
                       Improved, but Enhancements Could Improve Taxpayer Service




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Field Assistance Office Has Improved Its Management
          Information Systems, Increasing the Availability of Program Data.............Page 3
                    Recommendation 1:........................................................Page 8

                    Recommendation 2:........................................................Page 9

          More Oversight Is Needed to Ensure the Accuracy of
          System Data ..................................................................................................Page 9
                    Recommendation 3:........................................................Page 11

          Adopting Industry Best Practices Could Improve the Customer
          Service Experience at Taxpayer Assistance Centers ....................................Page 11
                    Recommendation 4:........................................................Page 14

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Outcome Measure ................................................................Page 19
          Appendix V – Prior Treasury Inspector General for Tax
          Administration Audit Reports.......................................................................Page 20
          Appendix VI – Management’s Response to the Draft Report ......................Page 21
        Field Assistance Office Management Information Systems Have
         Improved, but Enhancements Could Improve Taxpayer Service




                       Abbreviations

CQRS             Centralized Quality Review System
FAMIS            Field Assistance Office Management Information System
IRS              Internal Revenue Service
TAC              Taxpayer Assistance Centers
TIGTA            Treasury Inspector General for Tax Administration
                   Field Assistance Office Management Information Systems Have
                    Improved, but Enhancements Could Improve Taxpayer Service




                                            Background

Most taxpayers interact with the Internal Revenue Service (IRS) only during the filing season,
the period from January through mid-April when most taxpayers file their annual tax returns.
During these months, millions of taxpayers
seek assistance to comply with tax laws by
walking into local IRS offices called Taxpayer    TAC assistors help taxpayers by:
Assistance Centers (TAC or Center). The           – Interpreting tax laws and regulations.
                                                  – Preparing certain tax returns.
Field Assistance Office is responsible for        – Resolving inquiries on taxpayer accounts.
overseeing the TACs and its mission is to         – Providing various other services.
provide quality face-to-face assistance and
self-assisted services that resolve tax issues
and educate the taxpaying public. To help meet this mission, the Field Assistance Office has
401 TACs in 5 geographical areas throughout the United States. Figure 1 shows the volume of
and reasons why taxpayers visited the TACs for Fiscal Years 2005 through 2008.
              Figure 1: TAC Contacts for Fiscal Years 2005 - 2008 (in millions)
                                      Fiscal Year         Fiscal Year        Fiscal Year         Fiscal Year
     Contacts/Product Lines
                                         2005                2006               20071               2008
     Accounts Contacts                     2.5                2.7                 3.1                3.2
     Forms Contacts                        1.6                1.4                 1.3                1.0
                      2
     Other Contacts                        1.4                1.3                 1.4                1.5
     Tax Law Contacts                      1.2                 .7                  .8                 .6
     Tax Returns Prepared                   .4                 .4                  .5                 .6

     Totals                                7.1                6.5                 7.1                6.9
    Source: IRS management information reports.

During Fiscal Years 2005 through 2008, the Treasury Inspector General for Tax Administration
(TIGTA) issued audit reports that addressed the IRS’ inability to compile and maintain accurate


1
  Fiscal Year 2007 data should not be compared to prior year data. In Fiscal Year 2007, the IRS changed its
methodology of counting TAC contacts by capturing “services provided” rather than, as in prior years, capturing the
number of taxpayers assisted. Beginning in Fiscal Year 2008, the IRS reverted to capturing the number of taxpayers
assisted.
2
  Examples of “Other Contacts” include assisting taxpayers with the U.S. Departing Alien Income Tax Statement
(Form 2063), date stamping tax returns brought in by taxpayers, and helping taxpayers with general information
such as addresses and directions to other IRS offices or other Federal Government agencies.
                                                                                                           Page 1
                     Field Assistance Office Management Information Systems Have
                      Improved, but Enhancements Could Improve Taxpayer Service



and complete management information to oversee and measure the effectiveness of its TAC
Program.3 Figure 2 provides examples of the concerns reported.
               Figure 2: Examples of Findings From Prior TIGTA Audit Reports

July 2005           Management information is not sufficient to determine the effectiveness of the
                    TAC Program. The lack of accurate and complete management information hinders the
                    IRS’ ability to make appropriate decisions when determining the locations and services it
                    provides taxpayers seeking face-to-face assistance. Improved management information is
                    needed to help the Field Assistance Office move toward its future goals.

March 2006          The Field Assistance Office management information system does not provide timely,
                    accurate workload performance information. In addition, the Field Assistance Office
                    current management information system does not collect the total number of services
                    provided to taxpayers; it captures only the most significant service provided to each
                    taxpayer.

May 2008            Key management information used to make decisions and support Program changes
                    continues to be either absent or based on inaccurate/incomplete data. This hinders the
                    IRS’ ability to make appropriate decisions when determining TAC locations and the
                    services they provide taxpayers seeking face-to-face assistance and has delayed the IRS
                    in making any decisions on the TAC Geographic Footprint, which is an important initiative
                    within the Taxpayer Assistance Blueprint.
    Source: TIGTA audit reports.

Because of the problems with its management information systems, there was no effective way
to test the data to ensure they were accurate and consistent. In response, the IRS agreed to
implement 15 corrective actions that would involve a multi-tiered effort to improve the Field
Assistance Office management information systems and oversight to ensure accurate data.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, during the period June 2008 through January 2009. We also visited the TACs
in the States of Georgia, Louisiana, and North Carolina. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




3
    See Appendix V for a complete list of audit reports.
                                                                                                     Page 2
                  Field Assistance Office Management Information Systems Have
                   Improved, but Enhancements Could Improve Taxpayer Service




                                      Results of Review

The Field Assistance Office Has Improved Its Management
Information Systems, Increasing the Availability of Program Data
Over the last 3 years, the TIGTA has reported on the IRS’ inability to compile and maintain
accurate and complete management information needed to oversee and measure the effectiveness
of its TAC Program. In response, the IRS used a phased approach to implement three different
management information systems. The systems have unique functions and interface with each
other to systemically capture the number of taxpayer visits to Centers, the primary service
provided, and the time assistors spend completing day-to-day duties. The systems also have
analytical tools to generate management information reports. In addition, the systems capture
data as entered by TAC assistors and the data transmitted between the systems are valid.
Newly implemented management information systems provide program data
needed to make numerous management decisions
The core of the new management information system is the Q-MATIC system. The Q-MATIC
system is an automated queuing system used to control the
flow of taxpayers waiting for assistance and its
implementation was the first phase in developing the Field
Assistance Office’s new management information system.4
Based on closing codes5 entered by TAC assistors, the
Q-MATIC system captures the number of taxpayers, the main
reasons why taxpayers visit, their wait times, and the duration
of the taxpayers’ contacts in each of the 401 TACs. The
availability of data from all Centers provides the Field Assistance Office the ability to identify
trends, manage resources, and benchmark performance.
The second phase involved the nationwide roll out of the Field Assistance Office Management
Information System (FAMIS). As of October 1, 2007, the FAMIS became the system of record
for capturing the number of taxpayer visits and the five primary services - Forms and
Publications, Tax Accounts, Tax Law, Tax Return Preparation, and Other. A key component of
the FAMIS is its interface with the Q-MATIC system. Prior to the FAMIS, daily employee work

4
  There are currently three types of Q-MATIC system installations: Full Q-MATIC, Q-LITE, and Q-Hybrid. Full
Q-MATIC provides full traffic management capabilities (i.e., collecting traffic volume and wait time data). Q-LITE
and Q-Hybrid are installed at the TACs with three employees or less and are limited to collecting traffic volume.
5
  Closing codes are input by assistors to record the type of taxpayer contacts. The assistors enter one code per
taxpayer contact–the code relating to the service in which the assistor spends the most time.
                                                                                                          Page 3
                Field Assistance Office Management Information Systems Have
                 Improved, but Enhancements Could Improve Taxpayer Service



captured in the Q-MATIC system had to be manually input into a form, the Field Assistance
Activity Report (Form 5311). In effect, the FAMIS automated this manual process.
The third phase of development included the implementation of the Business Objects system
reports platform. The Business Objects system is a commercial software package that allows
Field Assistance Office management to compile data and generate reports that can be used to
conduct comprehensive analysis and trends from the corporate level down to individual Centers.
Data from the FAMIS are validated weekly and imported into the Business Objects system.
In addition to these three systems, the IRS has continued to make significant progress with the
roll out of a fourth system, Contact Recording.
Contact Recording captures the audio portion of the
assistor/customer interaction and synchronizes it
with computer screen activity for replay and quality
review. It is used to assess employee performance to
improve accuracy and identify trends. As of
December 31, 2008, 327 (82 percent) of the 401 TACs are equipped with Contact Recording.
These systems have increased the availability of data needed to make management decisions,
train employees, and reduce taxpayer burden. For example, by using these systems, the Field
Assistance Office is able to:
   •   Review and monitor taxpayer service activities and program conditions by each
       management level in the organization.
   •   Monitor TAC activity on a real-time basis that provides the capability to gate taxpayers
       and reduce the wait time for services that can be accelerated.
   •   Analyze elements of taxpayers’ service experiences from the voice and data captured
       through contact recording.
Federal Government management control standards require that agencies ensure that appropriate
authority, responsibility, and accountability are defined and delegated to accomplish the mission
of the organization. The standards also require that an appropriate organizational structure be
established to effectively carry out program responsibilities.
To address this requirement, the Field Assistance Office has initiated plans to establish a
technology group. Management stated that the technology group will consolidate the operations
and maintenance efforts for Field Assistance Office information systems under one group to
provide the technical support needed to keep the systems operational.




                                                                                           Page 4
                Field Assistance Office Management Information Systems Have
                 Improved, but Enhancements Could Improve Taxpayer Service



The new management information systems address many of TIGTA’s
recommendations from prior reports
The Field Assistance Office has successfully implemented 14 (93 percent) of 15 corrective
actions in response to prior recommendations. Prior recommendations concerning the Field
Assistance Office’s management information systems and the problems with inaccurate and
unreliable data included:
1. Developing and implementing an information system that is based on reliable and accurate
   data.
2. Capturing the number of taxpayers served, the numbers and types of services provided, and
   the related resources (costs).
3. Developing a process that includes routine assessments of TAC operations to ensure that they
   are optimally located and the services provided at the Centers are the most effective and cost
   efficient.
4. Ensuring that data used in any decision-making tool are accurate, reliable, and validated
   before using the data to make decisions regarding the TAC Program.
The IRS agreed to all recommendations and is continuing to work on three corrective actions.
However, it has determined that it is not feasible to use the Q-MATIC system to count all
services provided to taxpayers.
Contact recordings would provide the Field Assistance Office with the number of
services provided to taxpayers
For Fiscal Year 2008, the IRS reported that 6.9 million taxpayers were assisted at its Centers.
However, the IRS cannot accurately report how many services taxpayers received. Current
guidelines require assistors to count one service for each taxpayer assisted – the one in which the
assistor spends the most time. The remaining services are not captured. The IRS acknowledges
that most taxpayers who visit the TACs are provided more than one service.
In response to our recommendation to count multiple services, the Field Assistance Office
implemented a corrective action effective January 1, 2007, that required assistors to count all
services provided for each taxpayer visit. However, a review of Q-MATIC system functionality
and correspondence issued to employees showed that this directive was unclear and
unsuccessful.
For example, the version of the Q-MATIC system used by the IRS is designed to capture only
one service per taxpayer visit. However, the Field Assistance Office believed that the system
had the capability to capture multiple services. The decision to capture services prevented
assistors from also capturing the number of taxpayer visits. Further, managers and assistors
interviewed during visits to two Centers only recalled getting the announcement via email. They
did not recall receiving any other formal guidance or training to address this change. IRS

                                                                                            Page 5
                Field Assistance Office Management Information Systems Have
                 Improved, but Enhancements Could Improve Taxpayer Service



management stated that formal guidance was provided to field managers and assistors, mainly
through the IRS Intranet. However, IRS management was unable to provide this guidance to us.
This created confusion among employees. Some assistors counted services while others
continued to just count visits. As a result, Fiscal Year 2007 data were inconsistent (i.e., both
taxpayer services and visits were recorded) and could not be compared to data from previous
years. Therefore, beginning in Fiscal Year 2008, the Field Assistance Office reversed this
decision to count all services citing system limitations and variances in the data collected.
In a Fiscal Year 2008 report, we again recommended that the IRS capture all services provided
to taxpayers. However, the IRS concluded that information from the Contact Recording System,
along with the Q-MATIC system and the FAMIS, was sufficient to identify taxpayer needs and
services provided.
Contact recordings can be used to capture all services provided to taxpayers at the TACs
The Field Assistance Office currently uses the IRS Customer Account Services function and the
Centralized Quality Review System (CQRS) to measure quality. This process requires reviewers
to listen to a statistical sample of contact recordings to evaluate employee performance. During
this process, reviewers could also document all services assistors provide to taxpayers.
During visits to 2 Centers, auditors listened to 30 contact recordings and determined that it was
feasible to use the recordings selected for quality assurance as a tool to capture all the services
assistors provide to taxpayers. By listening to the contact recordings, auditors determined that
for the 30 taxpayer contacts, 52 services were provided. Figure 3 shows the number of services
reported by the Field Assistance Office compared to the results recorded by our auditors.




                                                                                             Page 6
                   Field Assistance Office Management Information Systems Have
                    Improved, but Enhancements Could Improve Taxpayer Service



                  Figure 3: Number of Services6 Provided for 30 Contacts
                                   Total Contacts      Total Services
               Type of                                                        Additional Services
                                    per Q-MATIC         per TIGTA’s
           Taxpayer Service                                                   per TIGTA’s Review
                                      System              Review
                                                                          1     Forms
           Accounts                       12                  17          1     Accounts
                                                                          2     Other Contacts
                                                                          1     Tax Law Questions
                                                                          0     Forms
                                                                          3     Accounts
           Forms                           6                  13
                                                                          4     Other Contacts
                                                                          0     Tax Law Questions
                                                                          0     Forms
                                                                          2     Accounts
           Other Contacts                  7                  10
                                                                          1     Other Contacts
                                                                          0     Tax Law Questions
                                                                          2     Forms
                                                                          1     Accounts
           Tax Law Questions               5                  12          1     Other Contacts
                                                                          1     Tax Law Questions
                                                                          2     Return Preparation
          Total                           30                  52          22
          Source: TIGTA auditors review of contact recordings.

Field Assistance Office management agreed that capturing all services would enhance data
already used to manage the Centers. Because CQRS reviews are based on a statistical sample,
the results could be used to project the number of services at all Centers. Representatives from
the CQRS and the IRS Statistics of Income function agreed that services captured from the
statistical sample of reviewed recordings could be used to project the volume of services
provided by all Centers.
Knowing what services are provided at each TAC and for the TAC Program will allow the IRS
to determine where to focus its resources so that it can better plan to consistently deliver
high-quality services to taxpayers, thereby enhancing the overall Field Assistance Office
operations.




6
 Taxpayer Services may include multiple closing actions per service category. For example, the Accounts category
has 14 different services including payments, notices, and refund inquiry actions.
                                                                                                        Page 7
                Field Assistance Office Management Information Systems Have
                 Improved, but Enhancements Could Improve Taxpayer Service



System reports could provide insight on why taxpayers visit but leave the TACs
without receiving services
The Field Assistance Office defines taxpayers who select a Q-MATIC system ticket but leave
without receiving service from an assistor as a “No Show.” During Fiscal Year 2008, more than
400,000, or 6 percent, of all walk-in taxpayers were categorized as a No Show.
The Q-MATIC system captures the reasons why taxpayers are visiting the Centers. However,
once taxpayers are classified as No Shows, the reasons for their visits are not currently available
for analysis. When asked, the Business Objects system analyst stated that the data for the initial
service requested at the time the Q-MATIC ticket was issued were accessible from the Business
Objects system but it requires the development of a report.
The Field Assistance Office needs additional trend analyses to identify and evaluate the initial
services requested by taxpayers who leave before receiving those services. The data analysis
would provide Field Assistance Office management with opportunities to reduce wait time,
better allocate resources during peak times, improve gate management, improve targeting staff
levels and training, and develop additional self-help options.
The Social Security Administration uses No Show data collected by its in-house queuing system
for trend analysis. The Social Security Administration’s queuing system provides a management
report containing the average number and percentage of visitors who leave without service per
day.
Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Use CQRS reviewers and data to identify multiple services provided to
taxpayers while listening to contact recordings.
       Management’s Response: Management disagreed with this recommendation.
       Management stated that they believe a new CQRS to identify services provided would
       not significantly enhance data already available.
       Office of Audit Comment: We continue to believe using CQRS staff and data to
       identify multiple services provided to taxpayers who visit Centers would provide
       meaningful data needed to make management decisions. In response to a prior TIGTA
       report, the Field Assistance Office agreed to count services but did not successfully
       implement a methodology to capture the needed data. As a result, the current process to
       only capture one service per taxpayer visit continues to significantly understate the true
       value Centers provide taxpayers who prefer face-to-face assistance.
       Limited tests at two Centers during this review showed that the current methodology
       understated the number of services provided by 73 percent. Field Assistance Office

                                                                                             Page 8
               Field Assistance Office Management Information Systems Have
                Improved, but Enhancements Could Improve Taxpayer Service



       management again agreed that capturing all services would enhance data already used to
       manage the Centers. Because quality reviews are based on a statistical sample, the results
       could be used to project the number of services at all Centers. In addition, the IRS
       Statistics of Income function agreed that services captured from the statistical sample of
       reviewed recordings could be used to project the volume of services provided by all
       Centers.
       In view of the fact that management previously agreed to count multiple services and
       acknowledged the benefits of increased data, it is not clear why the IRS disagrees with
       using Contact Recording to count all services provided to taxpayers at Centers. Further,
       the understatement of services provided has a direct impact on factors the IRS should
       consider in its 5-year strategic plan to improve taxpayer service.
Recommendation 2: Use existing system data, such as No Show data, to identify
opportunities for improving taxpayer services.
       Management’s Response: Management agreed with this recommendation and will
       review No Show data to identify opportunities for improving taxpayer services.
More Oversight Is Needed to Ensure the Accuracy of System Data
The Field Assistance Office has implemented internal controls to validate its management
information systems data. This is accomplished through system validity checks and system
reports. However, testing showed that Field Assistance Office assistors and managers do not
always ensure data entered into the system are accurate.
Figure 4 shows how data input by assistors flow through the Field Assistance Office
management information systems (i.e., data transfer from the Q-MATIC system through the
FAMIS to the Business Objects system) and the data validation’s internal controls process.




                                                                                          Page 9
                  Field Assistance Office Management Information Systems Have
                   Improved, but Enhancements Could Improve Taxpayer Service



    Figure 4: Field Assistance Office Monitoring System Performance Process7
                                                        FAMIS            FAMIS data
                  Q-MATIC                                                               MISDW
                                       Q-MATIC data
                                                                                               FAMIS data

                                                                                        BPMS
                                                                                      (Business
                                                                                       Objects)


                   272d                     Import
                                                                                               ITAMS
                                           Summary                       Data
                                                               Non-     Matching
                                                             Transmit


              BPMS – Business Performance Measurement System
              MISDW – Management Information System Data Warehouse                    ITAMS
              ITAMS - Information Technology Asset Management System                  Report

         Source: Excerpt from the Field Assistance Office Presentation, “Queuing Management–Release 2 Field
         Assistance Management Information System Executive Briefing,” dated August 31, 2007.

The Q-MATIC system accurately captures the data as entered by TAC assistors. In addition, the
data generated by the FAMIS and transmitted to the Business Objects system are valid.
However, Field Assistance Office assistors are not always correctly inputting all taxpayer
contacts.
Auditors reviewed the Q-MATIC system and FAMIS reports from 12 Centers to evaluate the
controls used to ensure the accuracy of Center data. Although not all the data were inaccurate
and some reports may have had only 1 error, reports from 8 (67 percent) of the 12 Centers
contained inaccuracies - 16 (29 percent) of the 55 reports reviewed contained inaccurate data.
That is, the systems accurately captured the data as entered by TAC assistors, but Field
Assistance Office assistors and managers did not ensure all data entered into the systems were
accurate. For example:
•   Taxpayer contacts are not always being manually recorded when the Q-MATIC system is
    temporarily offline and not operating. When the Q-MATIC system goes offline, assistors are
    required to manually record taxpayer contacts before the end of the day using the Field
    Assistance Contact Sheet (Form 6148A). These contacts are then to be manually entered into
    the FAMIS to ensure that all taxpayer contacts are recorded.
    For the period October 2007 through August 2008, 127 helpdesk tickets reported issues with
    Q-MATIC system hardware indicating that the Q-MATIC system could be offline and the
    manual process should be followed. During discussions with six TAC managers, four stated


7
 The Management Information System Data Warehouse is the authoritative repository and reporting tool of
management information system data. The Information Technology Assets Management System is the tool the IRS
uses for reporting helpdesk issues and problem management.
                                                                                                            Page 10
                Field Assistance Office Management Information Systems Have
                 Improved, but Enhancements Could Improve Taxpayer Service



    that they did not follow procedures to manually record taxpayer visits and services provided
    when the Q-MATIC system was not available. TAC managers, including acting managers,
    stated that this happened because they were unaware of or unfamiliar with the procedures or
    did not follow the manual procedures to record taxpayer visits and services when the
    Q-MATIC system is out of service.
•   Taxpayer contacts are not always being manually recorded after TAC assistors close for the
    day but continue to assist taxpayers. This happens, for example, when TAC assistors close
    their workstations at the end of the day but, for various reasons, they continue to assist
    taxpayers and neglect to adjust their contacts on the forms used to update the FAMIS.
•   Manual adjustments of taxpayer contacts are not always accurately recorded. Taxpayer
    contacts were charged to erroneous categories and not properly corrected. Taxpayer contacts
    were transferred to other assistors but the transfers were improperly completed. These
    manual adjustments were not identified during TAC manager reviews of system reports
    before the FAMIS data were approved and transmitted.
When assistors do not accurately record taxpayer visits, the number of contacts and services
provided by the TACs are understated. Managers at all levels are required to ensure accurate
assistor reporting and timely submission of data. Analysts monitor system performance and data
transmissions. Managers need to review the system reports prior to approving them for
transmission.
Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should ensure Field
Assistance Office controls are reinforced to ensure that data are entered accurately into
management information systems and reviewed.
       Management’s Response: Management agreed with this recommendation and stated
       that they currently have multi-tiered operational reviews in place to ensure that data are
       entered accurately into management information systems and reviewed.
Adopting Industry Best Practices Could Improve the Customer
Service Experience at Taxpayer Assistance Centers
The IRS is committed to providing top-quality service to taxpayers. This includes giving
taxpayers the option, before visiting a TAC, of knowing service wait times and/or scheduling
appointments for tax return preparation. The Field Assistance Office identified taxpayer return
preparation and minimizing wait times among the top three priorities for Fiscal Year 2009. One
of its planned strategies is to identify and promote less-costly methods of service delivery, such
as automation, to reduce customer dependence on traditional methods of delivery and improve
quality and utilize resources more efficiently.

                                                                                           Page 11
                Field Assistance Office Management Information Systems Have
                 Improved, but Enhancements Could Improve Taxpayer Service



Taxpayer experience could be improved by providing taxpayers with estimated
wait times before they visit a TAC
During Fiscal Year 2008, approximately 18 percent of taxpayers waited more than 30 minutes
for assistance at the Centers. Taxpayers have several options from which to choose when they
need assistance from the IRS, including face-to-face assistance at the Centers, telephone
assistance through the toll-free telephone numbers, and IRS.gov, the IRS public web site.
Choosing which option best suits a taxpayer is dependent on many factors, including taxpayers’
individual preferences to the complexity of their tax issues. However, the elements of time and
convenience are usually foremost.
Providing taxpayers with all the information they need to choose which service option is best for
them is part of providing top-quality service. The IRS currently does not have the capability of
providing taxpayers with the wait time at the Centers. However, the wait time feature is
available on the Q-MATIC system.
The State of Massachusetts, using the Q-MATIC system and its web site, provides taxpayers
with wait times at 35 Registry of Motor Vehicle Offices. Through the State web site, an
individual can click on the name of an office and find out how long he or she will have to wait at
a particular office to receive service. Figure 5 shows the screen taxpayers in Massachusetts see
when they click on the hyperlinks to the field offices.
            Figure 5: State of Massachusetts Registry of Motor Vehicles




     Source: Massachusetts Department of Motor Vehicles web site.

                                                                                          Page 12
                   Field Assistance Office Management Information Systems Have
                    Improved, but Enhancements Could Improve Taxpayer Service



State of Massachusetts Department of Motor Vehicles managers stated that the ability of its
customers to monitor site activity in real time has been very effective in reducing wait time and
controlling customer traffic.
Updating the IRS web site with this feature could help reduce wait time in the Centers. For
example, taxpayers can check the IRS web site to determine the wait time at Centers in their
vicinity.8
Providing estimated wait times and educating taxpayers while they wait could
improve their experience
Currently, while visiting a TAC, taxpayers do not know how long they must wait before they
receive assistance. However, the Q-MATIC system has the functionality to provide taxpayers
with wait times. In addition, while waiting, the IRS could use the time to educate and inform
taxpayers.
The Q-MATIC system utilizes Liquid Crystal Display monitors 9 to provide customers with wait
times and information that could educate or inform them. The Q-MATIC system Liquid Crystal
Display monitor is a presentation solution for all types of stand-alone screens. It gives customer
service offices the ability to provide information targeted at waiting customers such as
announcements, presentations, webpages, and office information like operating hours and
telephone numbers.
The monitors currently in place at IRS Centers display the last customer number called and the
assigned counter number. During visits to the TACs,
we observed that these displays can be confusing to
taxpayers. Further, the primary tools used to educate
and inform taxpayers are multiple flyers, posters, and
leaflets. The use of monitors to educate and inform
taxpayers would reduce the need to publish and update
costly printed documents–thus further reducing
operating costs.
We visited a Georgia State Department of Motor
Vehicles office that has implemented this feature with Liquid Crystal Display monitors. The
office manager reported that by informing as well as entertaining their customers, it makes their
waiting times seem shorter and more pleasant.




8
  This solution would be feasible only at sites with full Q-Matic systems. Q-LITE rolls up and monitors traffic
volume from remote sites but does not provide traffic management at the TACs.
9
  Liquid Crystal Displays are flat screen displays often used for television and computer monitors.
                                                                                                           Page 13
                     Field Assistance Office Management Information Systems Have
                      Improved, but Enhancements Could Improve Taxpayer Service



Providing online appointment scheduling could reduce taxpayer burden at the
TACs
For Fiscal Year 2008, approximately 500,000 individual taxpayers visited the TACs to obtain tax
return preparation assistance. Current Field Assistance Office guidelines require that taxpayers
visit the TACs to schedule appointments for this service. The IRS provides taxpayers, through
IRS.gov, with the criteria to qualify for tax return preparation assistance.
However, appointments cannot be made by telephone10 or through IRS.gov because employees
are required to screen taxpayers to ensure that they qualify for assistance before an appointment
is scheduled. This process also ensures that taxpayers clearly understand the scope of services
IRS assistors can provide and all the necessary documents the taxpayer is required to provide in
order to have a tax return prepared. Some taxpayers are able to receive same day appointments,
but most are required to return for appointments to prepare their tax returns.
The IRS is evaluating the return preparation appointment process this fiscal year. The Field
Assistance Office will be piloting 3 variations of non-appointment return preparation procedures
at 15 TACs from March 1 through May 31, 2009.
Self-help tax law assistants are currently available on IRS.gov
The IRS has self-help tax law assistants for the Earned Income Tax Credit and Alternative
Minimum Tax that walk taxpayers through a series of questions that will help them determine
their eligibility for certain credits and deductions. A self-help application similar to these could
be used to determine eligibility for tax return preparation assistance.
An electronic option for taxpayers to determine their eligibility and also schedule appointments
for tax return preparation assistance would eliminate the need for taxpayers to come into a TAC
more than once to have their tax returns prepared. We estimated that taxpayer burden can be
reduced for 1.1 million taxpayers for a 5-year period by eliminating the need for taxpayers to
first visit the TACs in order to be screened for tax return preparation assistance.
In addition, the functionality should be available to allow taxpayers, after they determine that
they are eligible, to schedule appointments for tax return preparation through IRS.gov. The
Louisiana State Department of Revenue has implemented a web-based customer appointment
solution to help reduce customer wait time.
Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should expand the
use of current technology to adopt industry best practices to reduce burden and improve the
customer service experience at the TACs.


10
     IRS guidelines exempt taxpayers with disabilities, allowing the scheduling of appointments over the telephone.
                                                                                                             Page 14
        Field Assistance Office Management Information Systems Have
         Improved, but Enhancements Could Improve Taxpayer Service



Management’s Response: Management disagreed with this recommendation stating
that the current system’s capability is limited and will not support expansion to an
electronic option for taxpayers to determine their eligibility, schedule online
appointments, or for providing estimated wait times. Additional core system upgrades,
security, testing, development of software, maintenance contracts, and training costs for
multiple business divisions would require business systems planning. The Q-MATIC
system requires basic standardization of equipment in all TACs prior to purchasing
additional enhancements.
Further, they believe the recommended expansion into a web-based appointment system
is premature. The age of the Q-MATIC system software and hardware will not support a
web-based appointment system. Senior management analyzes and recommends annually
the most needed maintenance items for the Q-MATIC system.
Office of Audit Comment: Although the IRS agreed that an online appointment
process would reduce burden, it stated that implementation of this process was not
feasible since the current system capability is limited and will not support expansion to an
electronic appointment process. During this review, auditors provided the IRS data on
the cost to implement a web-based system that would provide wait-time estimates to
taxpayers planning to visit a TAC. The cost data were based on information obtained
from a commercial vendor. Based on this information, it appears the function could be
added at a moderate cost. The IRS combined the cost to implement an online
appointment process with the estimated cost to provide web-based wait times. However,
the appointment process is not part of the function to provide wait times. We believe
these costs should be considered separately.
Management’s response further stated that a web-based appointment process would
require enhancements to the current system. During the audit, we informed the IRS that
there are several off-the-shelf software programs that are available and could be
considered to provide this service.
Concerning the outcome measure related to this recommendation, the IRS stated that
adding a new component to the current system for an online appointment process would
be cost prohibitive and, therefore, it did not agree with the outcome measure. The
information we obtained from vendors indicated that the costs would be moderate. The
IRS did not provide a cost/benefit analyses or any documents to show that the costs
would make it impracticable to implement this feature.




                                                                                   Page 15
                Field Assistance Office Management Information Systems Have
                 Improved, but Enhancements Could Improve Taxpayer Service



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of the audit was to assess the IRS Field Assistance Office’s corrective
actions to improve its management information systems. To accomplish the objective, we:
I.     Evaluated Field Assistance Office management’s implementation of corrective actions.
II.    Determined whether the Field Assistance Office management information systems met
       management’s objectives by discussing with Field Assistance Office management the
       systems’ objectives, how the data are used, and whether there are plans for future system
       enhancements.
III.   Contacted system stakeholders and determined whether the Field Assistance Office’s
       management information systems capture services provided to taxpayers.
       A. Contacted officials from external organizations to identify potential best practices in
          customer service technologies and processes to manage customer traffic and capture
          services provided. We contacted internal officials to identify the uses of systems
          data.
       B. Evaluated the feasibility of using CQRS quality reviewers and data to identify
          multiple services provided to taxpayers while listening to a judgmental sample of 30
          of 195 contact recordings. We chose a judgmental sample because we were not going
          to project our results.
IV.    Evaluated the reliability of data captured for the following Field Assistance Office
       management information systems: FAMIS, Q-MATIC system, and Business Objects
       system. This included the effectiveness of internal controls designed to ensure the
       validity, accuracy, and completeness of the data.
       A. Selected a judgmental sample of 6 of 401 TACs to visit in the States of Georgia,
          Louisiana, and North Carolina. The TACs were selected based on their proximity to
          auditors’ geographic locations. We chose a judgmental sample because we were not
          going to project our results. We conducted visits to the selected Centers and
          interviewed selected officials to evaluate the processes in place to validate data
          entered into the management information systems.
       B. Reviewed system reports from 12 of 401 TACs to verify the implementation of data
          validation controls at each level of responsibility (i.e., employee, manager, analyst,
          and system programmer).


                                                                                          Page 16
               Field Assistance Office Management Information Systems Have
                Improved, but Enhancements Could Improve Taxpayer Service



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Wilma Figueroa, Lead Auditor
Tanya Adams, Senior Auditor
Andrea Hayes, Auditor
Patricia Jackson, Auditor
Geraldine Vaughn, Auditor




                                                                                    Page 17
               Field Assistance Office Management Information Systems Have
                Improved, but Enhancements Could Improve Taxpayer Service



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief Technology Officer OS:CTO
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Planning, Research, and Analysis, Wage and Investment Division SE:W:S:R
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation, and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 18
                Field Assistance Office Management Information Systems Have
                 Improved, but Enhancements Could Improve Taxpayer Service



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 1,075,764 taxpayer accounts affected (see page 11).
Methodology Used to Measure the Reported Benefit:
In Fiscal Year 2008, 457,772 individual taxpayers visited the TAC to obtain tax return
preparation assistance. The IRS estimates that 215,000 (47 percent) of the 457,772 taxpayers
were screened for eligibility for tax return preparation and received appointments for assistance.
An electronic option for taxpayers to self-screen and schedule appointments for tax preparation
assistance would reduce taxpayer burden by eliminating the need for taxpayers to visit the TACs
more than once to have their tax returns prepared.
We computed the 5-year potential reduction in taxpayer burden by taking the number of
taxpayers who had their returns prepared in Fiscal Year 2008 and multiplying it by the IRS
estimated percentage of taxpayers who were given appointments for return preparation and then
multiplying it by 5 years.
(457,772 x 0.47 x 5 years) = 1,075,764




                                                                                          Page 19
               Field Assistance Office Management Information Systems Have
                Improved, but Enhancements Could Improve Taxpayer Service



                                                                               Appendix V

           Prior Treasury Inspector General for Tax
                 Administration Audit Reports

Customer Service at the Taxpayer Assistance Centers Is Improving but Is Still Not Meeting
Expectations (Reference Number 2005-40-021, dated December 28, 2004).
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 22, 2005).
Customer Accuracy at Taxpayer Assistance Centers Showed Little Improvement During the 2005
Filing Season (Reference Number 2005-40-146, dated September 8, 2005).
Improved Internal Controls and Contact Recording Are Needed to Ensure the Accuracy and
Reliability of the Taxpayer Assistance Centers Quality Measurement System (Reference
Number 2006-40-022, dated December 6, 2005).
Taxpayer Service Is Improving, but Challenges Continue in Meeting Expectations (Reference
Number 2006-40-052, dated February 17, 2006).
The Taxpayer Assistance Center Closure Plan Was Based on Inaccurate Data (Reference
Number 2006-40-061, dated March 22, 2006).
The Field Assistance Office Has Taken Appropriate Actions to Plan for the 2006 Filing Season,
but Challenges Remain for the Taxpayer Assistance Center Program (Reference Number
2006-40-067, dated March 31, 2006).
Taxpayers That Call Local Taxpayer Assistance Center Telephone Numbers Are Unable to
Schedule Appointments to Resolve Tax Account Issues (Reference Number 2006-40-165, dated
September 21, 2006).
System Updates and Control Improvements Are Needed to Ensure Contact Recording Will
Provide an Accurate Assessment of Taxpayer Assistance Quality (Reference Number
2007-40-115, dated July 9, 2007).
Inaccurate and Incomplete Data Have Adversely Affected Implementation of the Taxpayer
Assistance Center Geographic Footprint (Reference Number 2008-40-118, dated May 16, 2008).




                                                                                       Page 20
   Field Assistance Office Management Information Systems Have
    Improved, but Enhancements Could Improve Taxpayer Service



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 21
Field Assistance Office Management Information Systems Have
 Improved, but Enhancements Could Improve Taxpayer Service




                                                      Page 22
Field Assistance Office Management Information Systems Have
 Improved, but Enhancements Could Improve Taxpayer Service




                                                      Page 23
Field Assistance Office Management Information Systems Have
 Improved, but Enhancements Could Improve Taxpayer Service




                                                      Page 24
